Department of Homeland Security
   Ofﬁce of Inspector General

             Improving FEMA’s Individual Assistance, 

                 Technical Assistance Contracts 





OIG-11-114                                      September 2011
Table of Contents/Abbreviations

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................7 


     Improving Readiness .....................................................................................................7 

     Recommendation ...........................................................................................................8 

     Management Comments and OIG Analysis ..................................................................8 


     Enhancing the Sector-specific Playbooks......................................................................9 

     Recommendation .........................................................................................................11 

     Management Comments and OIG Analysis ................................................................11 


     Strengthening Accountability and Oversight ...............................................................12 

     Recommendations........................................................................................................14 

     Management Comments and OIG Analysis ................................................................14 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................16 

     Appendix B:           Management Comments to the Draft Report .......................................17 

     Appendix C:           IA-TAC Contracts and Major Disaster Declarations...........................21 

     Appendix D:           IA-TAC Sectors with FEMA Regions and Contractors ......................22 

     Appendix E:           Selected DHS OIG Reports .................................................................23 

     Appendix F:           Letter to FEMA’s Chief Procurement Officer .....................................24 

     Appendix G:           Major Contributors to this Report ........................................................27 

     Appendix H:           Report Distribution ..............................................................................28 


Abbreviations
     CO                    contracting officer            

     COTR                  contracting officer’s technical representative 

     DHS                   Department of Homeland Security 

     FAR                   Federal Acquisition Regulation 

     FEMA                  Federal Emergency Management Agency

     IA                    FEMA Individual Assistance                 

     IA-TAC                Individual Assistance, Technical Assistance Contracts 

     MCS                   mission capability summary              

     OIG                   Office of Inspector General 

     PaTH                  Partnership for Temporary Housing 

     RMT                   resource mobilization table           

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   The Federal Emergency Management Agency’s Individual
                   Assistance, Technical Assistance Contracts need improvement.
                   These contracts, with a total funding ceiling of $1.5 billion, are for
                   comprehensive program management services as well as
                   construction, architectural, and engineering capabilities to support
                   housing; mass care; and disaster planning, staffing, and logistics
                   services. Each contractor must be capable of supporting multiple
                   disaster missions of any size, anywhere within the United States
                   and its territories.

                   However, the contracts do not include specific performance
                   requirements for readiness in key mission areas such as sheltering
                   and feeding. There is no guarantee that the contractors will be able
                   to perform when needed. As a result, the Federal Emergency
                   Management Agency is spending, on average, more than
                   $5.1 million each year on readiness capabilities that may not be
                   available when needed.

                   In addition, the Federal Emergency Management Agency needs to
                   improve its acquisition function. Although the agency has
                   attempted to improve contract management, there is still a need for
                   substantial improvement. Improvements in contract file
                   documentation and better management oversight, including the
                   prompt implementation of corrective actions, are needed to prevent
                   opportunities for fraud, waste, and abuse.

                   We are making five recommendations to improve the Individual
                   Assistance, Technical Assistance Contracts and the agency’s
                   acquisition function.




           Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                          Page 1
Background
                   When disasters occur, local communities respond first, followed by
                   the state, if necessary. Under the Robert T. Stafford Disaster Relief
                   and Emergency Assistance Act (Stafford Act), a Governor may
                   request declaration of a major disaster when effective response and
                   recovery are beyond the capabilities of the state and affected local
                   governments. The Stafford Act defines the Federal Emergency
                   Management Agency’s (FEMA’s) role during a declared disaster.
                   Figure 1 depicts the process for requesting and receiving federal
                   assistance authorized under the Stafford Act.

         Figure 1. Process for requesting and receiving federal assistance
         authorized under the Stafford Act

                          Federal Resources
                      May deploy in advance of the
                               incident                     Incident
                                                                                                                  2
                                                             Occurs          1                                       Elected/Appointed
                                                                             Local First Responders                        Official
                                                                                Arrive on scene                   Activates local Emergency
                                                                                                                      Operations Center


                                                                                                                        Requests mutual aid
         8                                                                                                              and state assistance
             Joint Field Office
              Provides unified                                   6
          coordination of response                                                          3
                 resources                                    President                             Governor
                                                     Declares emergency or major            Activates State Emergency
                                                               disaster                         Operations Center


                                                                                                                      Assesses damage
                                                                                                                      Requests Emergency
                                                                                                                      Management Assistance
                                                                                                                      Compact or other interstate
                                                                                                                      mutual aid
                                                             Recommends
                  7                                                                    4                              Requests Presidential
                                                               Through                     FEMA Region                declaration
                      Response Teams and                     DHS Secretary              Evaluates situation and
                       Other Resources                                                   Governor’s request
                            Deploy

                                                        5
                                                         FEMA Administrator
                                                         Assesses situation and
                                                          Governor’s request




         Source: DHS OIG.

                   The FEMA Individual Assistance (IA) Division provides financial
                   and direct assistance to individuals and households in a disaster
                   area whose property has been damaged or destroyed and whose
                   losses are not covered by insurance. Direct assistance can include
                   temporary housing, such as government-provided housing units
                   when rental properties are not available, or permanent housing



        Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                                      Page 2
                          construction.1 In providing this assistance, FEMA can use local
                          and small businesses or its Individual Assistance, Technical
                          Assistance Contractors (IA-TACs). FEMA policy is to use local
                          vendors wherever feasible and practicable. When IA-TACs are
                          used, the goal is to transition to local vendors within 6 months of
                          the disaster event, and sooner if practicable.

                          FEMA used the IA-TACs on a massive scale during the 2005
                          hurricane season. In response to Hurricane Katrina, FEMA
                          awarded no-bid contracts (IA-TAC I) to Fluor Enterprises, Inc.;
                          Shaw Group; CH2M Hill Constructors, Inc.; and Bechtel National,
                          Inc. The IA-TACs were to provide and coordinate comprehensive
                          project management services for temporary housing, which
                          included all phases of design, planning, budgeting, construction,
                          demolition, and site restoration from project beginning through
                          completion and closeout. The scope of these contracts
                          encompassed numerous support functions, including the
                          transportation, storage, installation, and subsequent deactivation of
                          temporary housing units. Figure 2 depicts temporary housing units
                          installed on an Emergency Group Site by IA-TAC I contractors.

                   Figure 2. Temporary housing units installed on an Emergency
                   Group Site by IA-TAC I contractors (Pascagoula, MS)




                   Source: DHS OIG, based on FEMA photo library.



1
 This type of housing assistance is available only in insular areas or remote locations specified by FEMA,
where no other type of housing assistance is practicable.


                  Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                                  Page 3
                        In August 2006, FEMA awarded six new contracts (IA-TAC II) for
                        program and Disaster Recovery Center support, temporary housing
                        group site design and construction, and hauling and installing
                        temporary housing units for future disasters. These contracts were
                        for a 2-year period with a contract ceiling of $250 million each.
                        Task orders issued in response to a disaster under these contracts
                        would require the IA-TACs to use local firms to the “maximum
                        extent practicable” for additional subcontracting opportunities.
                        The prime contractors receiving awards were Shaw
                        Environmental; Fluor Enterprises, Inc.; Partnership for Temporary
                        Housing; Disaster Solutions Alliance LLC; Bechtel National; and
                        CH2M Hill. Figure 3 depicts construction of a temporary housing
                        unit at a FEMA housing site by IA-TAC II contractors.

                 Figure 3. Construction of a temporary housing unit at a
                 FEMA housing site by IA-TAC II contractors (Greensberg, KS)




                 Source: FEMA photo library.

                        After Hurricane Ike devastated Galveston Island, FEMA did not
                        initially use IA-TAC II to provide temporary housing.2 Instead, a
                        FEMA headquarters official instructed field office staff to award a
                        contract to provide mobile homes and “to get it done at all costs.”
                        The official instructed that this be done so local residents and the
                        media would see mobile homes arriving in the disaster area 1 week
                        sooner than would have occurred using the IA-TAC II process for
2
 DHS OIG, Improvements Needed in FEMA's Disaster Contract Management (OIG-10-53), February
2010.


                Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                               Page 4
        providing mobile homes. Because FEMA was paying for
        expedited services, the price per mobile home exceeded the
        government’s independent cost estimate by 264%. Had FEMA
        used IA-TAC II, mobile homes would have arrived in about 10
        days and FEMA would have saved more than $700,000.

        In May 2009, FEMA awarded four new contracts (IA-TAC III)
        using a different acquisition strategy. This strategy, as depicted in
        appendix D, divided the United States and its territories into four
        regional sectors: Alpha Sector (FEMA Regions VIII, IX, and X);
        Bravo Sector (FEMA Regions I, II, and V); Charlie Sector (FEMA
        Regions VI and VII); and Delta Sector (FEMA Regions III and
        IV). The solicitation allowed for the award of four separate
        indefinite-delivery, indefinite-quantity contracts; each successful
        offeror was assigned responsibility for one of the sectors.
        According to FEMA officials, this new strategy streamlined the
        task order award process and enabled FEMA to respond faster to
        the housing needs of disaster survivors.

        As in previous contracts, the IA-TACs are responsible for
        providing comprehensive emergency management, project
        management, and program management services, as well as
        construction, architectural, and engineering capabilities in—

                 Housing support,
                 Construction services,
                 Mass care, and
                 Planning, staffing, and logistics services.

        Under IA-TAC III, each contractor must also maintain a readiness
        capability adequate to support multiple disaster missions of any size,
        anywhere within its sector. This includes providing FEMA with
        five readiness-related deliverables: (1) executable plans for dealing
        with different operational situations occurring simultaneously (i.e.,
        Sector-specific Playbooks); (2) readiness training that contractor
        personnel were to complete; (3) exercises that the contractors were
        to develop and conduct; (4) monthly readiness reports; and
        (5) quarterly briefings.

        Each contract has a total funding ceiling of $375 million over 5
        years (1 base year plus four 1-year options). The prime contractors
        receiving awards were Partnership for Temporary Housing (Alpha
        Sector); Disaster Solutions Alliance LLC (Bravo Sector); Shaw
        Environmental & Infrastructure (Charlie Sector); and CH2M Hill
        (Delta Sector).


Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                               Page 5
                        During the first 2 years of IA-TAC III, FEMA used the contractors
                        for three disasters. FEMA used CH2M Hill in a 2009 West
                        Virginia flood to provide temporary housing services and support.
                        Next, FEMA used the Partnership for Temporary Housing (PaTH)
                        for a 2009 flood in Alaska requiring pre-operations planning
                        services. This included developing an interim and full operations
                        plan for providing individual assistance to the disaster’s survivors.
                        After the 2009 American Samoa earthquake and tsunami, FEMA
                        used PaTH to build permanent housing for disaster survivors.
                        Figure 4 depicts homes under construction by the contractors.

                 Figure 4. IA-TAC III permanent housing construction
                 (American Samoa)




                 Source: American Samoa Department of Commerce.3




3
 DHS OIG, American Samoa 2009 Earthquake and Tsunami: After-Action Report (OIG-11-03), October
2010.


                Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                               Page 6
Results of Audit
           Improving Readiness
                   During the first year of the IA-TAC III contracts, FEMA approved more
                   than $5.65 million in readiness payments to the IA-TACs. In theory, the
                   IA-TACs are required to maintain readiness capabilities sufficient to
                   support multiple disaster missions of any size, anywhere within their
                   assigned sectors. However, there are no specific performance
                   requirements for readiness in key mission areas such as sheltering,
                   feeding, logistics, support camps, and temporary housing.

                            Performance Requirements

                            To address the need for specific performance requirements, after
                            contract award, FEMA tasked the IA-TACs with developing
                            mission capability summaries (MCSs) and resource mobilization
                            tables (RMTs) for inclusion in their Sector-specific Playbooks
                            (Playbooks). However, FEMA allowed the contractors to base the
                            MCSs and RMTs on questionable planning assumptions, such as
                            the following:

                                   1.	 Transportation modes are intact and usable. However,
                                       in the initial phase of a catastrophic event, transportation
                                       infrastructure can be severely disrupted or destroyed. For
                                       example, in the aftermath of Hurricane Katrina, the
                                       hardest-hit communities lost all infrastructure, including
                                       roads and bridges.

                                   2.	 Identified resources are available when needed.
                                       Nevertheless, many of the resources used by the IA-
                                       TACs for mission capabilities are not exclusive.4 There
                                       is no guaranteed minimum level, and critical assets may
                                       already have been tasked by state, local, or other entities,
                                       reducing the IA-TACs’ ability to provide the requisite
                                       support. For example, an IA-TAC may indicate that it
                                       can feed more than 100,000 people a day. However, the
                                       IA-TAC does not actually have the meals in its
                                       possession but intends to purchase the food from a
                                       supplier. This is not an exclusive agreement, so the
                                       supplier may have promised the same food to other
                                       entities, and may or may not be able to supply the food to
                                       the IA-TAC.

4
    These resources include goods and services maintained by the IA-TACs or supplied by subcontractors.


                    Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                                   Page 7
        Conclusion

        To guarantee that the IA-TACs will be able to perform when
        needed, FEMA pays them, on average, more than $5.1 million
        each year. However, because of the nonspecific performance
        requirements and questionable planning assumptions, FEMA has
        no assurance that the IA-TACs will be able to perform when
        needed. If all 4 option years of IA-TAC III are exercised, FEMA
        could potentially pay the contractors more than $25.53 million for
        nonexistent or inadequate readiness capabilities.


Recommendation
        We recommend that the Federal Emergency Management
        Agency’s Director, Individual Assistance Division, coordinate with
        the Chief Procurement Officer to:

        Recommendation #1: Replace, as soon as practicable, the
        Individual Assistance, Technical Assistance Contracts. Future
        contracts should include specific performance requirements and
        deliverables that—

                 Are developed in coordination with key stakeholders,

                 Include realistic planning assumptions, 

                 Support needed capabilities, and 

                 Ensure a minimum readiness level in key mission areas.



Management Comments and OIG Analysis
        FEMA concurred with the recommendation. According to FEMA,
        it will work to replace the contracts “as soon as practicable,”
        considering the acquisition timeframes required and while ensuring
        mission readiness. This includes developing new performance
        requirements and deliverables to “more effectively and efficiently
        ensure a minimum readiness level in all key mission areas.”
        However, in its comments to the draft report, FEMA also stated
        that it had established “rigorous deliverables tied to readiness
        money paid to the contractors, which provides a tangible Return on
        Investment.”

        We recommended that the contracts be replaced as soon as
        practicable because FEMA (1) is paying the IA-TACs millions of
        dollars for readiness although it has no assurance that the

Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                               Page 8
              contractors will be able to perform when needed; and (2) has
              violated the Federal Acquisition Regulation (FAR), as detailed in
              appendix F.

              Performance-based acquisitions are structured around the results to
              be achieved. The IA-TAC III contracts do not consistently
              describe required results in clear, specific, and objective terms with
              measurable outcomes. For example, the contracts do not clearly
              identify what the key mission areas are, the readiness level for each
              area, or appropriate planning assumptions.

              The MCSs and RMTs that FEMA has directed the contractors to
              develop were not part of the original IA-TAC III solicitation or
              contracts. The costs associated with developing and maintaining
              these documents detract from other readiness-related activities.
              The IA-TACs are paid a fixed lump-sum amount each month
              regardless of their level of effort for any particular readiness-
              related activity.

              Results from FEMA’s IA-TAC III contractor site visits of
              March/April 2011 indicate that key disaster resources may not be
              available when needed. Furthermore, FEMA reported that a
              number of IA-TAC suppliers—

                       Had insufficient capability to comply with requirements,
                       Had limited experience with disaster survivor support, and
                       Were unable “to provide concrete examples of their work.”

              Until a corrective action plan and timetable for implementation of
              the recommendation is provided, the recommendation is open and
              unresolved.


Enhancing the Sector-specific Playbooks
     The development and maintenance of Playbooks is a contract deliverable
     under readiness and included in the firm fixed price. The Playbooks,
     originally envisioned as executable operational plans, were to be designed
     for dealing with different operational situations occurring simultaneously.
     However, after contract award, FEMA changed the Playbooks’
     requirements without formally modifying the contracts. According to
     FEMA officials, these changes were made to address the evolving needs
     of key stakeholders (e.g., the FEMA Regions) and insufficient detail on
     specific mass care requirements.



      Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                     Page 9
                             The Playbook Scenarios

                             Contractually, the IA-TACs are required to include in the
                             Playbooks at least three scenarios (based on potential sector risk
                             profiles) for meeting disaster requirements, with a cost estimate
                             and an analysis of the potential disaster risk exposure for each
                             readiness scenario. However, the National Planning Scenarios,
                             which are the focus of federal planning efforts and represent
                             examples of the gravest dangers facing the United States, have
                             largely been excluded from the Playbooks. The Playbooks have
                             focused on natural disasters such as flooding, earthquakes, and
                             hurricanes. None has specifically addressed bombings; nuclear
                             detonations; biological, chemical, or radiological attacks; cyber
                             attacks; or disease outbreaks such as pandemic influenza.

                             One FEMA program official said that the Playbooks are intended
                             to respond to program functions and not directly to a specific
                             disaster type such as a chemical attack; housing, feeding, and
                             sheltering functions remain essentially the same regardless of the
                             disaster type. However, we are concerned that the unique
                             considerations of certain scenarios5 may be overlooked or not
                             sufficiently considered in the Playbooks.

                             New Requirements

                             After contract award and without formal contract modifications,
                             FEMA tasked the IA-TACs with preparing MCSs and RMTs for
                             inclusion in the Playbooks. These deliverables were to address the
                             following mission and functional areas:

                                 1.   Sheltering, including health and social services
                                 2.   Feeding
                                 3.   Warehousing operations and transportation of supplies
                                 4.   Support camps
                                 5.   Temporary housing
                                 6.   Disaster planning and staffing support
                                 7.   Pet care
                                 8.   Accompanied and unaccompanied children
                                 9.   Commodities such as cots and blankets

                             These areas were included in addition to the contractual
                             requirements for creating a database of local requirements and
                             conditions that affect temporary housing, such as utility hookups,

5
    For example, extraordinary levels of mass casualties requiring specialized services.


                    Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                                    Page 10
        local permits, and the use of private sites. Some of the IA-TACs
        stated that this has caused them to question whether the changes go
        beyond what FEMA had originally asked for in its solicitation and
        intended as executable operational plans.

        Despite the changes, some responsible FEMA officials have
        expressed continuing concerns about the usefulness of the
        Playbooks. Several officials said that the Playbooks contained
        information that FEMA either already had or that was not very
        useful. One official commented that the Playbooks had not been
        coordinated with state and local emergency operations plans.
        Another official characterized FEMA’s Playbook concept as
        obsolete.

        Conclusion

        FEMA, without formally modifying the contracts, has changed the
        Playbooks’ contractual requirements. Despite the changes, the
        usefulness of the Playbooks is questionable.


Recommendation
        We recommend that the Federal Emergency Management
        Agency’s Director, Individual Assistance Division:

        Recommendation #2: Reevaluate the requirement for Sector-
        specific Playbooks in future Individual Assistance, Technical
        Assistance Contracts.


Management Comments and OIG Analysis
        FEMA concurred with the recommendation. According to FEMA,
        the Playbooks are intended to be living documents, subject to
        modification as needed. As such, FEMA will continue to work
        with Regions and partners to revise the Playbooks and operational
        requirements, and to address gaps as necessary to ensure that the
        Playbooks meet their readiness needs.

        We recognize that FEMA has attempted to improve the Playbooks
        it receives under the IA-TAC III contracts. However, FEMA
        needs to comply with the FAR when adding or changing contract
        deliverables.



Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                               Page 11
             Until a corrective action plan and timetable for implementation of
             the recommendation are provided, the recommendation will remain
             open and unresolved.


Strengthening Accountability and Oversight
     FEMA needs to strengthen accountability and oversight of the IA-TAC
     contracts. IA-TAC III contract requirements for readiness are vague and
     difficult to enforce. Additionally, the acquisition staff overseeing the
     contracts has experienced high turnover. Over time, this has resulted in
     different contracting officers (COs) and contracting officer’s technical
     representatives (COTRs) interpreting the contracts differently, exacerbated
     contract file maintenance issues, and adversely affected FEMA’s oversight
     of recommended corrective actions.

             Separately Priced Deliverables

             Each IA-TAC receives a monthly fixed fee for readiness, which
             includes five specific deliverables: Sector-specific Playbooks,
             training, exercises, monthly readiness reports, and quarterly
             briefings. However, none of these deliverables was separately
             priced. Instead, FEMA incorporated them into a single, firm fixed
             price that the IA-TACs invoice as a single line item every month.
             As a result, COTRs believed that they could only approve or reject
             the invoices in full. For the first year of the contracts, FEMA
             approved more than $5.65 million in invoices for deliverables that
             were not separately priced. If they had been, FEMA would have
             been better able to approve partial payments when circumstances
             warranted, track specific costs, and build a historical basis for
             better firm fixed prices.

             Acquisition Staff Turnover

             Since award of the IA-TAC III contracts, the FEMA officials
             responsible for contract administration and oversight have changed
             several times. By March 2011, at least four different contracting
             officers had been appointed to manage the contracts. One FEMA
             official told us that the contracts are “hot potatoes” that none of the
             COs want to manage. The turnover resulted in different COs and
             COTRs interpreting the contracts differently over time.

             FEMA needs qualified acquisition staff to manage these
             multimillion-dollar contracts consistently.



     Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                    Page 12
                           Incomplete Contract Files

                           The contract files were incomplete and not in compliance with the
                           FAR.6 For example, the memorandums documenting the
                           prenegotiation objectives for two of the IA-TACs were missing
                           from the contract files, and FEMA could not locate them. The
                           prenegotiation objectives, established before the negotiation of any
                           pricing action, set up the government’s initial negotiation position
                           and assist in the CO’s determination of fair and reasonable price.

                           As we reported in 2009, contracting staff turnover in FEMA
                           exacerbates file maintenance problems.7 Frequently, contract files
                           are transferred because of personnel changes, and if the file is not
                           in order at this point, it is difficult if not impossible for the newly
                           assigned CO to put the file in order.

                           Open Audit Recommendations

                           DHS OIG and the Government Accountability Office have
                           identified major weaknesses in FEMA’s contract management. A
                           number of recommendations remain open. Most notably, FEMA
                           has yet to identify and recover payments for unallowable costs
                           made under IA-TAC I. In 2008, we recommended that FEMA
                           recover—

                                1.	 Unsupported or excessive charges identified as questioned
                                    costs totaling $37,226,491 related to inspection and
                                    acceptance of goods and services

                                2.	 The $8,686,175 in questioned costs associated with the
                                    purchase of a base camp

                           Office of Management and Budget Circular A-50 states that
                           resolution and corrective actions on audit recommendations shall
                           be prompt. Resolution shall be made within a maximum of 6
                           months after issuance of a final report or, in the case of audits
                           performed by nonfederal auditors, 6 months after receipt of the
                           report by the federal government. Corrective action should
                           proceed as rapidly as possible.

6
  FAR Section 4.801(b) states that the documentation in the contract files shall be sufficient to constitute a
complete history of the transaction for the purpose of providing a complete background as a basis for
informed decisions at each step in the acquisition process, supporting actions taken, providing information
for reviews and investigations, and furnishing essential facts in the event of litigation or congressional
inquiries.
7
  DHS OIG, Internal Controls in the FEMA Disaster Acquisition Process (OIG-09-32), February 2009.


                  Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                                   Page 13
        Conclusion

        FEMA needs to improve its acquisition function, including the
        prompt implementation of corrective actions. Although FEMA has
        attempted to improve contract management, there is still a need for
        substantial improvement. Improvements in contract file
        documentation and better management oversight are needed to
        prevent opportunities for fraud, waste, and abuse.


Recommendations
        We recommend that the Federal Emergency Management
        Agency’s Director, Individual Assistance Division, work with the
        Chief Procurement Officer to:

        Recommendation #3: Require separately priced deliverables in
        future Individual Assistance, Technical Assistance Contracts.

        Recommendation #4: Ensure that acquisition personnel assigned
        to manage and monitor contracts have the skills and abilities to
        match the complexity of the contract and that they comply with the
        Federal Acquisition Regulation.

        Recommendation #5: Identify and recover payments for
        unallowable costs made during the 2005 hurricane season under
        the Individual Assistance, Technical Assistance Contracts.


Management Comments and OIG Analysis
        FEMA concurred with the three recommendations. According to
        FEMA, it (1) is identifying deliverables that should be separately
        priced and determining what services should be removed from the
        contracts; (2) has assigned an experienced CO and tier III certified
        COTRs to the contracts; and (3) is working to identify and recover
        payments for unallowable costs.

        Based on information provided in FEMA’s response to the draft
        report, we consider recommendation #4 resolved. Until a formal
        closeout letter and supporting documentation are provided, the
        recommendation will remain open and resolved.




Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                               Page 14
        The comments by FEMA are responsive to recommendations #3
        and #5. If properly implemented, the actions identified should
        address the conditions identified during the audit. However, until
        corrective action plans and timetables for implementation of the
        recommendations are provided, recommendations #3 and #5 will
        remain open and unresolved.




Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                               Page 15
Appendix A
Purpose, Scope, and Methodology

                          The objective of this performance audit was to determine the
                          efficacy of FEMA’s management of the Individual Assistance,
                          Technical Assistance Contracts, including policies and procedures
                          for (1) awarding individual task orders, (2) monitoring contractor
                          readiness and performance, and (3) certifying contractor billings.

                          FEMA is required to adhere to contract management policies and
                          procedures that are promulgated in the FAR.8 FEMA is also
                          required to adhere to the Homeland Security Acquisition
                          Regulation and the Homeland Security Acquisition Manual, Office
                          of Federal Procurement Policy guidance, and the Stafford Act.

                          This audit focused on the four base contracts, including
                          modifications, and task orders issued for readiness services. Based
                          on information provided by FEMA before and at the Entrance
                          Conference conducted in November 2010, the team determined
                          that eight task orders were issued with a total value of $10.5
                          million. We reviewed the deliverables required under these task
                          orders: Sector-specific Playbooks, training, exercises, monthly
                          readiness reports, and quarterly briefings. We obtained
                          information from FEMA headquarters officials and field officials
                          in Regions I through X. To gain a better understanding of IA-TAC
                          readiness issues and potential improvements, we interviewed
                          officials from all four contractors.

                          We conducted this performance audit between November 2010 and
                          April 2011 pursuant to the Inspector General Act of 1978, as
                          amended, and according to generally accepted government
                          auditing standards. Those standards require that we plan and
                          perform the audit to obtain sufficient, appropriate evidence to
                          provide a reasonable basis for our findings and conclusions based
                          upon our audit objectives. We believe that the evidence obtained
                          provides a reasonable basis for our findings and conclusions based
                          upon our audit objectives.




8
  The FAR, codified in Title 48 of the United States Code of Federal Regulations, was developed pursuant to
the Office of Federal Procurement Policy Act of 1974 (Public Law 93-400), as amended by Public Law 96-83.


                  Improving FEMA’s Individual Assistance, Technical Assistance Contracts


                                                 Page 16

Appendix B
Management Comments to the Draft Report




            Improving FEMA’s Individual Assistance, Technical Assistance Contracts


                                           Page 17

Appendix B
Management Comments to the Draft Report




            Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                           Page 18
Appendix B
Management Comments to the Draft Report




            Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                           Page 19
Appendix B
Management Comments to the Draft Report




            Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                           Page 20
Appendix C
IA-TAC Contracts and Major Disaster Declarations


           IA-TAC Contracts and Major Disaster Declarations
                             (2005–2011)

IA-TAC I (2005)
     August 2005: Hurricane Katrina
     September 2005: FEMA awards IA-TAC I Contracts

IA-TAC II (2006– 2008)
    August 2006: FEMA awards IA-TAC II Contracts
    DR-1603 (LA) Housing Mission
    DR-1659 (NM) Housing Mission
    DR-1679 (FL) Housing Mission
    DR-1697 (TX) Housing Mission
    DR-1699 (KS) Housing Mission
    DR-1711 (KS) Housing Mission
    DR-1712 (OK) Housing Mission
    DR-1717 (MN) Housing Mission
    DR-1731 (CA) Housing Mission
    DR-1733 (OR) Housing Mission and Formaldehyde Testing
    DR-1744 (AR) Housing Mission and Formaldehyde Testing
    DR-1745 (TN) Housing Mission and Formaldehyde Testing
    DR-1763 (IA) Housing Mission
    DR-1771 (IL) Housing Mission
    DR-1786 (LA) Housing Mission
    DR-1791 (TX) Housing Mission
    DR-1792 (LA) Housing Mission

IA-TAC III (2009–March 2011)
   May 2009: FEMA awards IA-TAC III Contracts
   DR-1843 (AK) Housing Mission
   DR-1838 (WV) Housing Mission
   DR-1859 (AS) Subject Matter Experts and Housing Mission (permanent housing)




Source: DHS OIG, based on FEMA contract files.




              Improving FEMA’s Individual Assistance, Technical Assistance Contracts


                                             Page 21

Appendix D
IA-TAC Sectors with FEMA Regions and Contractors



            IA-TAC Sectors with FEMA Regions and Contractors
                                                                Disaster Solutions Alliance LLC
            Partnership for Temporary Housing




 American
 A
  Samoa




                                                                                           CH2M Hill




                            Shaw Environmental and Infrastructure




Source: DHS OIG, based on FEMA contract files.




                 Improving FEMA’s Individual Assistance, Technical Assistance Contracts


                                                Page 22

Appendix E
Selected DHS OIG Reports

American Samoa 2009 Earthquake and Tsunami: After-Action Report (OIG-11-03),
      October 2010.

Improvements Needed in FEMA’s Management of Public Assistance-Technical
      Assistance Contracts (OIG-11-02), October 2010.

FEMA’s Preparedness for the Next Catastrophic Disaster – An Update (OIG-10-123),
     September 2010.

Improvements Needed in FEMA’s Disaster Contract Management (OIG-10-53),
      February 2010.

FEMA’s Sourcing for Disaster Response Goods and Services (OIG-09-96), August 2009.

Internal Controls in the FEMA Disaster Acquisition Process (OIG-09-32),
       February 2009.

Hurricane Katrina Temporary Housing Technical Assistance Contracts (OIG-08-88),
       August 2008.




              Improving FEMA’s Individual Assistance, Technical Assistance Contracts


                                             Page 23

Appendix F
Letter to FEMA’s Chief Procurement Officer




                                      9




______________________
9
  FEMA requests that this information in Appendix F (Letter to FEMA’s Chief Procurement Officer)
remain redacted.


                 Improving FEMA’s Individual Assistance, Technical Assistance Contracts


                                                Page 24

Appendix F
Letter to FEMA’s Chief Procurement Officer




                                                      9
                                        9

                          9




                     9




                                                           9




             Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                            Page 25
Appendix F
Letter to FEMA’s Chief Procurement Officer




             Improving FEMA’s Individual Assistance, Technical Assistance Contracts

                                            Page 26
Appendix G
Major Contributors to this Report

                     Donald Bumgardner, Division Director
                     Eric Young, Audit Manager
                     John Woo, Auditor-in-Charge
                     Polin Cohanne, Senior Program Analyst
                     Aaron Naas, Program Analyst




             Improving FEMA’s Individual Assistance, Technical Assistance Contracts


                                            Page 27

Appendix H
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             Improving FEMA’s Individual Assistance, Technical Assistance Contracts


                                            Page 28

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
